No.

 

 

In THE
Supreme Court of the United States

JERYME MORGAN,

Petitioner,
v.

MINH SCHOTT, TIM VEATH, AND HUDSON MAYNARD,
Respondents.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,259 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 5, 2019.

 

Wilson-Epes Printing Co., Inc.
